               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-02316-322




    Combined Assessment Program 

            Review of the 

       Richard L. Roudebush 

         VA Medical Center 

        Indianapolis, Indiana 





September 23, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN



                                                Glossary
                 CAP              Combined Assessment Program
                 CBOC             community based outpatient clinic
                 CLC              community living center
                 CS               controlled substances
                 EHR              electronic health record
                 EOC              environment of care
                 facility         Richard L. Roudebush VA Medical Center
                 FY               fiscal year
                 GRACE            Geriatric Resources for Assessment and Care of
                                  Elders
                 HPC              hospice and palliative care
                 NA               not applicable
                 NC               noncompliant
                 OIG              Office of Inspector General
                 PCCT             Palliative Care Consult Team
                 PI               performance improvement
                 QM               quality management
                 RME              reusable medical equipment
                 RN               registered nurse
                 SOP              standard operating procedure
                 SPS              Sterile Processing Service
                 TMS              Talent Management System
                 VHA              Veterans Health Administration
                 VISN             Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                  CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     5

  Medication Management – CS Inspections .............................................................                             8

  Coordination of Care – HPC ...................................................................................                  10

  Pressure Ulcer Prevention and Management .........................................................                              11

  Nurse Staffing .........................................................................................................        14

  Construction Safety.................................................................................................            15


Review Activity with Previous CAP Recommendations ......................................... 17

  Follow-Up on EOC Issue ........................................................................................ 17


Appendixes
  A. Facility Profile ....................................................................................................        18

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 19

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              29

  F. Report Distribution .............................................................................................            30

  G. Endnotes ...........................................................................................................         31





VA OIG Office of Healthcare Inspections
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
July 15, 2013.

Review Results: The review covered seven activities and one follow-up review area
from the previous Combined Assessment Program review.                            We made no
recommendations in the following two activities:

   Quality Management

   Coordination of Care – Hospice and Palliative Care

The facility’s reported accomplishments were the implementation of the Geriatric
Resources for Assessment and Care of Elders Program and the Mobile Prosthetic Van
Program.

Recommendations: We made recommendations in the following five activities and
follow-up review area:

Environment of Care: Ensure Environment of Care Committee minutes reflect
discussion regarding deficiencies identified during environment of care rounds and
actions taken in response to those deficiencies. Require employees to wear gloves
when in contact with patients on the hemodialysis unit. Ensure operating room
employees who perform immediate use sterilization receive annual competency
assessments. Require reusable medical equipment standard operating procedures to
be consistent with manufacturers’ instructions, and reprocess reusable medical
equipment in accordance with standard operating procedures and manufacturers’
instructions. Check Sterile Processing Service eyewash stations weekly, and document
the checks.

Medication Management – Controlled Substances Inspections: Ensure all controlled
substances (CS) inspectors complete the CS Drug-Diversion Inspection Certification
prior to beginning CS inspections. Inspect all required non-pharmacy areas with CS,
sufficiently rotate inspectors in inspection assignments, and randomly schedule
inspections with no distinguishable patterns. Consistently complete a physical count of
10 line items for all unit and clinic areas during the 2nd and 3rd month of each quarter.
Include monthly verification of seals in pharmacy emergency cache inspections. Ensure
CS inspectors and the Chief of Pharmacy or designee consistently complete monthly
inspections of the inpatient and outpatient pharmacies.

Pressure Ulcer Prevention and Management: Perform and document a patient skin
inspection and risk scale upon transfer, upon change in condition, and at discharge.
Accurately document location, stage, risk scale score, and date pressure ulcer acquired



VA OIG Office of Healthcare Inspections                                                            i
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


for all patients with pressure ulcers. Perform and document daily skin inspections, daily
risk scales, and daily monitoring for a change in condition for patients at risk for or with
pressure ulcers. Perform and document daily monitoring for a change in condition for
all hospitalized patients identified as not being at risk for pressure ulcers. Ensure all
patients discharged with pressure ulcers have wound care follow-up plans and receive
dressing supplies prior to being discharged. Establish staff pressure ulcer education
requirements, and ensure designated employees receive training on how to administer
the pressure ulcer risk scale and how to accurately document findings.

Nurse Staffing: Ensure each unit-based expert panel and the facility expert panel
complete annual staffing plan reassessments. Require that all members of the
unit-based and facility expert panels receive the required training prior to an annual
staffing plan reassessment.

Construction Safety: Conduct contractor tuberculosis risk assessments prior to
construction project initiation, and ensure all designated employees receive ongoing
construction safety training.

Follow-Up on Environment of Care Issue: Ensure all designated employees complete
respirator fit testing.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 21–29, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                            ii
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities and one follow-up review activity from the previous CAP
review:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

   	   Follow-Up on EOC Issue

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.




VA OIG Office of Healthcare Inspections                                                           1
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


The review covered facility operations for FY 2012 and FY 2013 through July 19, 2013,
and was done in accordance with OIG SOPs for CAP reviews. We also asked the
facility to provide the status on the recommendations we made in our previous CAP
report (Combined Assessment Program Review of the Richard L. Roudebush VA
Medical Center, Indianapolis, Indiana, Report No. 10-03092-129, March 23, 2011). We
made a repeat recommendation in EOC.

During this review, we presented crime awareness briefings for 175 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
205 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

GRACE Program
The GRACE Program is an in-home care management program that works in
collaboration with the Patient Aligned Care Team to provide ongoing care to complex
veterans age 65 and older who are at risk for functional decline and institutionalization
due to medical, geriatric, and psychosocial conditions. Since the program’s inception in
April 2010, the GRACE program has served more than 400 frail veterans and their
caregivers and has demonstrated: (1) a 17 percent lower hospitalization rate, (2) 19
percent fewer bed days of care, (3) a 44 percent lower mortality rate, (4) a 46 percent
reduction in 30-day readmission rate, and (5) high levels of customer satisfaction.

Mobile Van Project

The Mobile Prosthetic Van Program is the first of its type to be rolled out in the VA
health care system and is designed to provide prosthetic specialty care to CBOCs on a
rotating basis. The team is comprised of a certified orthotist/prosthetist, an occupational
therapist, and a kinesiotherapist and is able to scan, fabricate, and fit a wide array of
orthotics, prosthetics, and assistive technology devices. Additionally, if needed,
assistive technologists make home visits.

Since its inception in April 2012, the program has increased the number of visits from
198 in FY 2012 to 411 in FY 2013. In addition, the scheduled appointment
no-show rate for the Mobile Prosthetic Van Program is less than 3 percent. Veterans
have voiced satisfaction with their appointments at the CBOCs since they are no longer
required to travel long distances to the facility.

VA OIG Office of Healthcare Inspections                                                           2
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NC                   Areas Reviewed                                          Findings
       There was a senior-level committee/group
       responsible for QM/PI, and it included the
       required members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews of at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.




VA OIG Office of Healthcare Inspections                                                                    3
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


 NC             Areas Reviewed (continued)                                     Findings
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
 NA    CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in PI over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/PI program over the past
       12 months.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    4
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected inpatient units (acute medical/surgical, locked mental health, and medical and
surgical intensive care), outpatient clinics (mental health, primary care, and specialty care), the
hemodialysis unit, the emergency department, and SPS. Additionally, we reviewed relevant
documents, conversed with key employees and managers, and reviewed 39 employee training
and competency files (19 hemodialysis, 10 operating room, and 10 SPS). The table below
shows the areas reviewed for this topic. The areas marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                                  Findings
  X    EOC Committee minutes reflected sufficient        Six months of EOC Committee meeting minutes
       detail regarding identified deficiencies,         reviewed:
       corrective actions taken, and tracking of          Minutes did not reflect discussion regarding
       corrective actions to closure.                       deficiencies identified during EOC rounds.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                    
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning        
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
       Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.




VA OIG Office of Healthcare Inspections                                                                    5
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


 NC         Areas Reviewed for Hemodialysis                                    Findings
                       (continued)
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 X     Selected EOC/infection prevention/safety            We observed one of the six employees not
       requirements were met.                               wearing gloves when in contact with patients
                                                            on the inpatient hemodialysis unit.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines     
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach     
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines             
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training                    
       and competency assessment.
 X     Operating room employees who performed              There was no evidence that any of the seven
       immediate use (flash) sterilization received          operating room employees on duty for more
       training and competency assessment.                   than 2 years who performed immediate use
                                                             sterilization received annual competency
                                                             assessments.
 X     RME SOPs were consistent with                      RME SOPs, manufacturers’ instructions,
       manufacturers’ instructions, procedures were       and 1 day of sterilization logs for 7 RME items
       located where reprocessing occurs, and             reviewed:
       sterilization was performed as required.            Three of the SOPs were not consistent with
                                                             manufacturers’ instructions.
                                                           The sterilization time for three of the items
                                                             and the reprocessing procedure for one item
                                                             did not match the SOPs and manufacturers’
                                                             instructions.
 X     Selected infection prevention/environmental        Three months of inspection records for three
       safety requirements were met.                      eyewash stations reviewed:
                                                           Two weekly checks were missing for each
                                                             eyewash station.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional               
       elements required by VHA, local policy, or
       other regulatory standards.



VA OIG Office of Healthcare Inspections                                                                     6
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN



Recommendations

1. We recommended that processes be strengthened to ensure that EOC Committee minutes
reflect discussion regarding deficiencies identified during EOC rounds and actions taken in
response to those deficiencies.

2. We recommended that processes be strengthened to ensure that employees wear gloves
when in contact with patients on the hemodialysis unit and that compliance be monitored.

3. We recommended that processes be strengthened to ensure that operating room
employees who perform immediate use sterilization receive annual competency assessments.

4. We recommended that processes be strengthened to ensure that RME SOPs are
consistent with manufacturers’ instructions and that RME is reprocessed in accordance with
SOPs and manufacturers’ instructions and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that SPS eyewash stations
are checked weekly and the checks documented and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    7
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
 X     CS inspectors were appointed in writing,          Certifications reviewed:
       completed required certification and training,     Two CS inspectors did not complete the CS
       and were free from conflicts of interest.            Drug-Diversion Inspection Certification prior to
                                                            beginning CS inspections.
 X     Non-pharmacy areas with CS were inspected         Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and          the past 6 months reviewed:
       inspections included all required elements.        Four required areas were not inspected.
                                                          Inspectors were not sufficiently rotated in
                                                            inspection assignments.
                                                          Distinguishable patterns were identified, and
                                                            most inspections were performed during the
                                                            last week of the month.
                                                          A physical count of 10 line items for all unit
                                                            and clinic areas during the 2nd and 3rd month
                                                            of each quarter was not consistently
                                                            completed.




VA OIG Office of Healthcare Inspections                                                                    8
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


 NC           Areas Reviewed (continued)                                     Findings
  X    Pharmacy CS inspections were conducted in         Documentation of pharmacy CS inspections
       accordance with VHA requirements and              during the past 6 months reviewed:
       included all required elements.                    Pharmacy emergency cache inspections did
                                                           not consistently include monthly verification of
                                                           the seals.
                                                          CS inspectors and the Chief of Pharmacy or
                                                           designee missed one monthly inspection of
                                                           the inpatient and outpatient pharmacies.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

6. We recommended that processes be strengthened to ensure that all CS inspectors
complete the CS Drug-Diversion Inspection Certification prior to beginning CS inspections.

7. We recommended that processes be strengthened to ensure that all required
non-pharmacy areas with CS are inspected, that inspectors are sufficiently rotated in inspection
assignments, and that inspections are randomly scheduled with no distinguishable patterns and
that compliance be monitored.

8. We recommended that processes be strengthened to ensure that a physical count of 10 line
items for all unit and clinic areas during the 2nd and 3rd month of each quarter is consistently
completed and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that pharmacy emergency
cache inspections include monthly verification of seals and that compliance be monitored.

10. We recommended that processes be strengthened to ensure that CS inspectors and the
Chief of Pharmacy or designee consistently complete monthly inspections of the inpatient and
outpatient pharmacies and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    9
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults, and
23 employee training records (8 HPC staff records and 15 non-HPC staff records), and we
conversed with key employees. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

 NC                     Areas Reviewed                                        Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
NA     The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
NA     An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
NA     HPC inpatients were assessed for pain with
       the frequency required by local policy.
NA     HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
NA     HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                   10
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 22 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
2 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected two patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                    Areas Reviewed                                         Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were              Six of the applicable 20 EHRs did not contain
       performed upon transfer, change in condition,       documentation that a skin inspection and risk
       and discharge.                                      scale were performed upon transfer, upon
                                                           change in condition, and/or at discharge.
 X     Staff were generally consistent in                 In 16 of the 22 EHRs, staff did not
       documenting location, stage, risk scale score,      consistently document the location, stage, risk
       and date acquired.                                  scale score, and/or date acquired.
 X     Required activities were performed for             Seven of the applicable 18 EHRs did not
       patients determined to be at risk for pressure       contain consistent documentation that staff
       ulcers and for patients with pressure ulcers.        performed daily skin inspections, daily risk
                                                            scales, and/or daily monitoring for a change
                                                            in condition.
 X     Required activities were performed for             Two of the applicable four EHRs contained
       patients determined to not be at risk for            no documentation that staff monitored
       pressure ulcers.                                     patients daily for change in condition.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.




VA OIG Office of Healthcare Inspections                                                                   11
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


 NC             Areas Reviewed (continued)                                     Findings
  X    If the patient’s pressure ulcer was not healed     Of the applicable six EHRs, one did not
       at discharge, a wound care follow-up plan was       contain evidence of a wound care follow-up
       documented, and the patient was provided            plan at discharge, and two did not contain
       appropriate dressing supplies.                      evidence that patients received dressing
                                                           supplies prior to discharge.
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
 X     The facility defined requirements for staff       VHA pressure ulcer staff education requirements
       pressure ulcer education, and acute care staff    reviewed:
       received training on how to administer the         The facility had not developed staff pressure
       pressure ulcer risk scale, conduct the               ulcer education requirements.
       complete skin assessment, and accurately           Four employee training records did not
       document findings.                                   contain evidence of how to administer the
                                                            pressure ulcer risk scale and how to
                                                            accurately document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that processes be strengthened to ensure that acute care staff perform
and document a patient skin inspection and risk scale upon transfer, upon change in condition,
and at discharge and that compliance be monitored.

12. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily skin inspections, daily risk scales, and daily monitoring for a change in
condition for patients at risk for or with pressure ulcers and that compliance be monitored.

14. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily monitoring for a change in condition for all hospitalized patients identified as
not being at risk for pressure ulcers and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
being discharged and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                   12
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


16. We recommended that the facility establish staff pressure ulcer education requirements and
that designated employees receive training on how to administer the pressure ulcer risk scale
and how to accurately document findings and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   13
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on two inpatient units
(acute medical/surgical and mental health).6

We reviewed relevant documents and 25 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 7 North and mental health unit 5 East for 52 randomly selected days (holidays, weekdays,
and weekend days) between October 1, 2012, and March 31, 2013. The table below shows the
areas reviewed for this topic. The areas marked as NC needed improvement. Any items that
did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
 X     The unit-based expert panels followed the          The unit-based expert panels did not
       required processes and included all required        complete an annual reassessment.
       members.
 X     The facility expert panel followed the required    The facility expert panel did not complete an
       processes and included all required members.        annual reassessment.
 X     Members of the expert panels completed the         Seven of the eight members of the unit-based
       required training.                                  expert panels had not completed the required
                                                           training.
                                                          Eight of the 17 members of the facility expert
                                                           panel had not completed the required
                                                           training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

17. We recommended that each unit-based expert panel and the facility expert panel complete
annual staffing plan reassessments.

18. We recommended that all members of the unit-based and facility expert panels receive the
required training prior to an annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                   14
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the Convert the Pneumatics to Digital Direct Controls project. Additionally, we
reviewed relevant documents and 20 training records (10 contractor records and 10 employee
records), and we conversed with key employees and managers. The table below shows the
areas reviewed for this topic. The areas marked as NC needed improvement. Any items that
did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
 X     Infection control, preconstruction, interim life   Risk assessments reviewed:
       safety, and contractor tuberculosis risk            A contractor tuberculosis risk assessment
       assessments were conducted prior to project           was not conducted prior to the project’s
       initiation.                                           initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project and any
       interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
 X     Contractors and designated employees               Employee and contractor training records
       received required training.                        reviewed:
                                                           Two employee records did not contain
                                                             evidence of at least 10 hours of construction
                                                             safety-related training in the past 2 years.




VA OIG Office of Healthcare Inspections                                                                      15
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


 NC            Areas Reviewed (continued)                                     Findings
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

19. We recommended that processes be strengthened to ensure that contractor tuberculosis
risk assessments are conducted prior to construction project initiation.

20. We recommended that processes be strengthened to ensure that designated employees
receive ongoing construction safety training and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   16
                                   CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN



     Review Activity with Previous CAP Recommendations 

Follow-Up on EOC Issue
As a follow-up to a recommendation from our prior CAP review, we reassessed facility
compliance with respirator fit testing.

Respirator Fit Testing. VHA requires facilities using N95 and other types of respirators to fit test
designated employees annually.8 The respirator fit testing compliance rate for all designated
employees at the facility for FY 2013 was 34 percent.

Recommendation

21. We recommended that processes be strengthened to ensure that all designated employees
complete respirator fit testing and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   17
                                CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN
                                                                                             Appendix A


    Facility Profile (Indianapolis/583) FY 2013 through May 2013a
Type of Organization                                                              Tertiary
Complexity Level                                                                  1a-High complexity
Affiliated/Non-Affiliated                                                         Affiliated
Total Medical Care Budget in Millions                                             $430
Number (through June 2013) of:
    Unique Patients                                                              53,427
    Outpatient Visits                                                            430,080
    Unique Employeesb                                                            3,077
Type and Number of Operating Beds:
    Hospital                                                                     159
    CLC                                                                          NA
    Mental Health                                                                50
Average Daily Census:
    Hospital                                                                     122
    CLC                                                                          NA
    Mental Health                                                                43
Number of CBOCs                                                                   3
Location(s)/Station Number(s)                                                     Terre Haute/583GA
                                                                                  Bloomington/583GB
                                                                                  Martinsville/583GC
VISN Number                                                                       11




a
    All data is for FY 2013 through May 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                18
                               CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN
                                                                                            Appendix B


                           VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012

Table 1

                  Inpatient Scores                                  Outpatient Scores
                 FY 2012     FY 2013                                    FY 2012
                Inpatient        Inpatient       Outpatient      Outpatient        Outpatient       Outpatient
                Score            Score           Score           Score             Score            Score
                Quarters 3–4     Quarters 1–2    Quarter 1       Quarter 2         Quarter 3        Quarter 4
    Facility    67.4             62.7            48.9            54.4              50.8             50.8
    VISN        65.0             64.6            53.0            56.7              54.1             54.7
    VHA         65.0             65.5            55.0            54.7              54.3             55.0



                       Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.

Table 2

                                 Mortality                                      Readmission
               Heart Attack      Heart          Pneumonia        Heart Attack     Heart            Pneumonia
                                 Failure                                          Failure
    Facility   15.9              10.2           9.6              21.3             26.1             18.3
    U.S.
    National   15.5              11.6           12.0             19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.


VA OIG Office of Healthcare Inspections                                                                          19
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs 	                                  Memorandum


       Date: 	         September 3, 2013

       From: 	         Director, Veterans in Partnership (10N11)

       Subject: 	      CAP Review of the Richard L. Roudebush VA Medical
                       Center, Indianapolis, IN

       To: 	           Director, Kansas City Office of Healthcare Inspections
                       (54KC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       Per your request, attached is the report from the Richard L. Roudebush
       VA Medical Center.       If you have any questions, please contact
       Dr. Cynthia Paterson, VISN 11 Acting QMO, at (734) 222-4302.




VA OIG Office of Healthcare Inspections                                                          20
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date:           September 3, 2013

       From:           Director, Richard L. Roudebush VA Medical Center (583/00)

       Subject:        CAP Review of the Richard L. Roudebush VA Medical
                       Center, Indianapolis, IN

       To:             Director, Veterans in Partnership (10N11)

       This memorandum serves as our concurrence with the recommendations
       found in the draft report of the Inspector General’s Combined Assessment
       Program Review of the Richard L. Roudebush VA Medical Center.

       I appreciate the opportunity for this review as a continuous process to
       improve the care to our Veterans.

       Thank You




       Richard L. Roudebush VA Medical Center Director




VA OIG Office of Healthcare Inspections                                                          21
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
EOC Committee minutes reflect discussion regarding deficiencies identified during EOC
rounds and actions taken in response to those deficiencies.

Concur: Yes

Target date for completion: September 30, 2013

EOC deficiency reports, corrective actions, and follow-up reports will be presented
monthly to the EOC Board.

Recommendation 2. We recommended that processes be strengthened to ensure that
employees wear gloves when in contact with patients on the hemodialysis unit and that
compliance be monitored.

Concur: Yes

Target date for completion: October 15, 2013

Dialysis staff were re-educated on required hand hygiene practices by the Dialysis Unit
Manager on July 22, 2013. The Unit Manager will provide on the spot education with
staff found not adhering to the facility policy. An educational blitz to include hand
hygiene, aseptic technique versus sterile technique and Center for Disease Control
recommendations for dialysis will be held on September 24, 2013, for all dialysis staff.
Patient education will be provided quarterly via the monthly patient newsletter
encouraging patients to remind staff to wear gloves and/or wash their hands. Hand
hygiene compliance will be monitored and reported monthly to Nursing PI Committee.

Recommendation 3. We recommended that processes be strengthened to ensure that
operating room employees who perform immediate use sterilization receive annual
competency assessments.

Concur: Yes

Target date for completion: July 16, 2013

Immediate use sterilization annual competency assessments were completed on
July 16, 2013. An annual competency fair for the Operating Room staff will be held
each December.




VA OIG Office of Healthcare Inspections                                                          22
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Recommendation 4. We recommended that processes be strengthened to ensure that
RME SOPs are consistent with manufacturers’ instructions and that RME is
reprocessed in accordance with SOPs and manufacturers’ instructions and that
compliance be monitored.

Concur: Yes

Target date for completion: September 30, 2013

SOPs identified were updated to reflect the manufacturers’ recommendation on
July 19, 2013. A rotating schedule has been developed to review/compare all facility
RME SOPs with manufacturer’s instructions. The Assistant Chief and Evening
Supervisor for SPS will ensure staff demonstrate/verbalize competency as SOPs and
sterilization parameters are updated and the sterilization parameters will be added to
the Count sheets as a visual cue to staff. The RME committee will be updated monthly
on new and/or updated SOPs and staff competency related to the new and /or updated
SOPs to ensure sustainability/compliance.

Recommendation 5. We recommended that processes be strengthened to ensure that
SPS eyewash stations are checked weekly and the checks documented and that
compliance be monitored.

Concur: Yes

Target date for completion: September 15, 2013

August 5, 2013, began the process of testing eye wash stations weekly and the shower
testing monthly with documentation on a standard form to include the location of each
eye wash station. The record of documentation will be maintained in the SPS area.
The Chief and Assistant Chief of SPS will review the eyewash inspection form weekly
for compliance with weekly and monthly testing of equipment.

Recommendation 6. We recommended that processes be strengthened to ensure that
all CS inspectors complete the CS Drug-Diversion Inspection Certification prior to
beginning CS inspections.

Concur: Yes

Target date for completion: October 1, 2013

All CS inspectors will have TMS module and annual classroom training assigned. Until
confirmation by the CS Coordinator for each CS inspector via receipt of certification of
completion from TMS and documentation of class participation, the CS inspector will not
be allowed to perform inspections.

Recommendation 7. We recommended that processes be strengthened to ensure that
all required non-pharmacy areas with CS are inspected, that inspectors are sufficiently



VA OIG Office of Healthcare Inspections                                                          23
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


rotated in inspection assignments, and that inspections are randomly scheduled with no
distinguishable patterns and that compliance be monitored.

Concur: Yes

Target date for completion: September 30, 2013

Controlled Substance coordinator will assign four independent CS inspectors to inspect
MedSelect areas on a rotating basis. A schedule will be maintained by the CS
Coordinator of areas inspected by each CS inspector to ensure compliance with
assignments.

Recommendation 8. We recommended that processes be strengthened to ensure that
a physical count of 10 line items for all unit and clinic areas during the 2nd and 3rd month
of each quarter is consistently completed and that compliance be monitored.

Concur: Yes

Target date for completion: September 30, 2013

The audit tool will be located on the CS Inspector SharePoint site for use. As part of the
education, the CS Inspectors will be instructed to place “n/a” in unused spaces on the
inspection form to demonstrate all items reviewed and documented if applicable. The
CS Coordinator will monitor to ensure the physical count of 10 line items is completed.

Recommendation 9. We recommended that processes be strengthened to ensure that
pharmacy emergency cache inspections include monthly verification of seals and that
compliance be monitored.

Concur: Yes

Target date for completion: September 30, 2013

Documentation form is being updated and will require CS inspector to submit a copy of
the Inventory Sheet for Disaster Vault where cache tote tags are recorded. The CS
Coordinator will monitor for compliance.

Recommendation 10. We recommended that processes be strengthened to ensure
that CS inspectors and the Chief of Pharmacy or designee consistently complete
monthly inspections of the inpatient and outpatient pharmacies and that compliance be
monitored.

Concur: Yes

Target date for completion: September 30, 2013

Pharmacy documentation of monthly inspections will be reviewed by CS Coordinator at
time of submission to ensure all required documentation is accounted for.



VA OIG Office of Healthcare Inspections                                                          24
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff perform and document a patient skin inspection and risk scale upon
transfer, upon change in condition, and at discharge and that compliance be monitored.

Concur: Yes

Target date for completion: October 1, 2013

The most recent electronic nursing skin assessment note will automatically populate the
accepting RN’s transfer note and RN discharge note. Daily and monthly feedback of
compliance is provided to the Unit Managers. For patients with change in condition, the
unit charge nurse will receive daily reports of unit specific reassessments. Summary
compliance will be reported to Nursing PI monthly.

Recommendation 12. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur: Yes

Target date for completion: October 1, 2013

The nursing skin assessment template is being revised to include forced functions to
ensure that patients with hospital acquired pressure ulcers will have the location, stage,
risk scale score and date pressure ulcer acquired consistently and accurately
documented. Daily monitoring by the wound/ostomy RNs and feedback to the Unit
Manager on inconsistent or inaccurate documentation will be done and monthly
unit-specific reports will be monitored and reported to the Nursing PI committee.
Monthly review of the VA Nursing Outcomes Database Skin Risk Reassessment report
by the Wound/Ostomy RNs with compliance included on the unit-specific report cards.

Recommendation 13. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily skin inspections, daily risk scales, and
daily monitoring for a change in condition for patients at risk for or with pressure ulcers
and that compliance be monitored.

Concur: Yes

Target date for completion: October 1, 2013

Unit-specific skin reassessment reports are printed daily for review by the unit Charge
Nurse. The Charge Nurse reviews the report and ensures the reassessment is
completed and records the information on a monitor. Immediate feedback will be
provided and a monthly report of compliance will be discussed at the Nursing PI
meeting.




VA OIG Office of Healthcare Inspections                                                          25
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Recommendation 14. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily monitoring for a change in condition
for all hospitalized patients identified as not being at risk for pressure ulcers and that
compliance be monitored.

Concur: Yes

Target date for completion: September 30, 2013

Unit-specific skin reassessment reports are printed daily for review by the unit Charge
Nurse. The Charge Nurse reviews the report and ensures the reassessment is
completed and records the information on a monitor. Immediate feedback will be
provided and a monthly report of compliance will be discussed at the Nursing PI
meeting.

Recommendation 15. We recommended that processes be strengthened to ensure
that all patients discharged with pressure ulcers have wound care follow-up plans and
receive dressing supplies prior to being discharged and that compliance be monitored.

Concur: Yes

Target date for completion: September 30, 2013

The physician and RN discharge templates are being revised to ensure that patients
discharged with pressure ulcers have wound care follow-up plans and dressing supplies
ordered. Monthly reports will be generated to monitor patients discharged with pressure
ulcers who have wound care follow-up plans and dressing supplies ordered.
Unit-specific compliance reports will be distributed to Nursing Unit Managers and
Medical Staff. 

Recommendation 16. We recommended that the facility establish staff pressure ulcer
education requirements and that designated employees receive training on how to
administer the pressure ulcer risk scale and how to accurately document findings and
that compliance be monitored.

Concur: Yes

Target date for completion: March 31, 2014

By October 30, 2013, a computerized training module (TMS Competency for Pressure
Ulcers) including how to administer the pressure ulcer risk scale and how to accurately
document findings is being revised and will be mandatory for all inpatient RNs. A
computerized training module is being revised (Pressure Ulcer Prevention) for all
inpatient Licensed Practical Nurses, Nursing Assistants and Health Technicians and will
be completed by October 30, 2013. Compliance with training completion will be tracked
monthly and reported to Unit Managers and Nurse Executive Team. All designated
current employees and new staff will complete the training modules by March 31, 2014.



VA OIG Office of Healthcare Inspections                                                          26
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Recommendation 17. We recommended that each unit-based expert panel and the
facility expert panel complete annual staffing plan reassessments.

Concur: Yes

Target date for completion: October 15, 2013

The unit-based expert panels are collecting and reviewing trended data. The
implementation date for completing the annual staffing plan reassessments is
September 27, 2013. The Associate Director for Patient Care Services will ensure the
staffing plan reassessments are completed by the unit-based expert panels on an
annual basis.

The implementation date for the facility expert panel to conduct the annual staffing plan
reassessment is October 2, 2013. The Associate Director for Patient Care Services will
ensure the staffing plan reassessment is completed by the facility expert panel on an
annual basis.

Recommendation 18. We recommended that all members of the unit-based and
facility expert panels receive the required training prior to an annual staffing plan
reassessment.

Concur: Yes

Target date for completion: July 19, 2013

All required training for members of unit-based panels and the facility expert panel was
completed (100%) on July 19, 2013. New members of the unit-based panels and the
facility expert panel will complete training within 30 days of joining the panel. A
compliance report will be run quarterly with feedback to the appropriate unit managers,
supervisors and service chiefs.

Recommendation 19. We recommended that processes be strengthened to ensure
that contractor tuberculosis risk assessments are conducted prior to construction project
initiation.

Concur: Yes

Target date for completion: October 1, 2013

A Pre-construction Risk Assessment (PCRA) checklist has been developed to be
completed by the Project Engineer on which the infection prevention coordinator will
sign and date for verification of the assessment of risk for Tuberculosis transmission to
contractors has been completed during the design and planning stage of the
project/renovation. The Project Engineer will track all PCRAs and if not completed in its
entirety, the bidding for the proposed project will not proceed. Compliance will be
reported monthly to EOC Board indicating the number of projects or that there are no
new projects requiring the PCRA.


VA OIG Office of Healthcare Inspections                                                          27
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN


Recommendation 20. We recommended that processes be strengthened to ensure
that designated employees receive ongoing construction safety training and that
compliance be monitored.

Concur: Yes

Target date for completion: September 30, 2013

A list of employees identified as requiring ongoing safety training will be maintained
electronically and reviewed monthly for compliance. Notification of non-compliance will
be sent to the employee and Service Chief. Compliance will be monitored monthly and
reported to the EOC Board.

Recommendation 21. We recommended that processes be strengthened to ensure
that all designated employees complete respirator fit testing and that compliance be
monitored.

Concur: Yes

Target date for completion: September 15, 2013

Medical Center wide annual fit test bonanza began on August 12, 2013, for designated
employees requiring N95 fit testing. Safety Service will monitor compliance and ensure
new employees identified as needing N95 training will receive it within 30 days of hire.
A N95 fit test bonanza will be scheduled annually.




VA OIG Office of Healthcare Inspections                                                          28
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Larry Selzler, MSPT, Team Leader
Contributors            John Brooks
                        Cindy Niemack-Brown, CMSW, LMHP
                        James Seitz, RN, MBA
                        Laura Snow, LMSW, MHCL
                        Ann Ver Linden, RN, MBA
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jennifer Whitehead
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          29
                          CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Veterans in Partnership (10N11)
Director, Richard L. Roudebush VA Medical Center (583/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Daniel Coats, Joe Donnelly
U.S. House of Representatives: Susan W. Brooks, Larry Bucshon, Andrè Carson,
 Luke Messer, Todd Rokita, Marlin Stutzman, Peter Visclosky, Jackie Walorski,
 Todd Young


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                          30
                                 CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN
                                                                                              Appendix G

                                                 Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Materiel Management, the Association for Professionals in Infection Control and
    Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                         31
                             CAP Review of the Richard L. Roudebush VA Medical Center, Indianapolis, IN



5
  References used for this topic included:

  VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).

  Various requirements of The Joint Commission.

  Agency for Healthcare Research and Quality Guidelines. 

  National Pressure Ulcer Advisory Panel Guidelines. 

  The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide, 

   November 2012.
6
  The references used for this topic were:
 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.
8
  The reference used for this topic was:
 Under Secretary for Health, “Respiratory Protection Used for Infectious Disease and Annual Fit-Testing,”
   Information Letter 10-2012-012, August 2, 2012.




VA OIG Office of Healthcare Inspections                                                                       32
